 DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General


   Improved Administration Can Enhance 

   Federal Emergency Management Agency 

         Laptop Computer Security 

                (Redacted) 





   The Department of Homeland Security, Office of Inspector General, has
   redacted this report for public release. A review under the Freedom of
   Information Act will be conducted upon request.




OIG-07-50                                                          June 2007
                                                                       Office of Inspector General
                                                                       U.S. Department of
                                                                       Homeland Security
                                                                       Washington, DC 20528




                                        June 5, 2007


                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency (FEMA) laptop computer security controls. It is based on interviews with FEMA
officials, direct observations, technical tests, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                            Richard L. Skinner 

                                            Inspector General                                        

Table of Contents/Abbreviations 


  Executive Summary .........................................................................................................................1 


  Background ......................................................................................................................................3 


  Results of Audit ...............................................................................................................................5 


       Standard Configuration Will Enhance Laptop Security ............................................................5 

       Recommendations......................................................................................................................9 

       Management Comments And OIG Analysis ...........................................................................10 


       Improved Patch Management Will Increase Security .............................................................10 

       Recommendations....................................................................................................................14 

       Management Comments And OIG Analysis ...........................................................................15 


       Enhanced Inventory Management Is Needed For Property Accountability ............................15 

       Recommendations....................................................................................................................19 

       Management Comments And OIG Analysis ...........................................................................20 


       FEMA Needs To Certify And Accredit Laptop Computers To Comply With FISMA........20 

       Recommendations....................................................................................................................21 

       Management Comments And OIG Analysis ...........................................................................22 


Appendices
  Appendix A:            Purpose, Scope, and Methodology .....................................................................                  23 

  Appendix B:            Management Comments to the Draft Report .....................................................                          28 

  Appendix C:            Major Contributors to this Report ......................................................................               31 

  Appendix D:            Report Distribution.............................................................................................       32 



Abbreviations
  ATL                     Advanced Technology Laboratory 

  BIOS                    Basic Input Output System

  CIO                     Chief Information Officer 

  CSIRC                   Computer Security Incident Response Center 

  DHS                     Department of Homeland Security 

  DISC                    Disaster Information Systems Clearinghouse 

  FEMA                    Federal Emergency Management Agency 



                            Improved Administration Can Enhance FEMA Laptop Computer Security
Table of Contents/Abbreviations 


  FIPS    Federal Information Processing Standards
  FISMA   Federal Information Security Management Act of 2002
  IP      Internet Protocol
  IT      Information Technology
  LIMS    Logistics Information Management System
  MERS    Mobile Emergency Response Support
  NIST    National Institute of Standards and Technology
  OIG     Office of Inspector General
  SBU     Sensitive But Unclassified
  SP      Special Publication
  WSUS    Windows Server Update Services




           Improved Administration Can Enhance FEMA Laptop Computer Security
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                We audited the Department of Homeland Security and its organizational
                components’ security program to evaluate the security and integrity of select
                government-issued laptop computers. This report focuses on the Federal
                Emergency Management Agency. Our objective was to determine whether the
                Federal Emergency Management Agency has established and implemented
                adequate and effective security policies and procedures related to the physical
                security of and logical access to its government-issued laptop computers.

                Significant work remains for the Federal Emergency Management Agency to
                further strengthen the configuration, patch, and inventory management controls
                necessary to protect its government-issued laptop computers. Specifically, the
                Federal Emergency Management Agency has not established: (1) effective
                processes to apply the domain security policy to its laptops that meets required
                minimum-security settings; (2) effective procedures to patch laptop computers;
                and (3) adequate laptop computer inventory management procedures. As a
                result, sensitive information stored and processed on Federal Emergency
                Management Agency laptop computers may not be protected properly. Further,
                because the Federal Emergency Management Agency applies the same domain
                security policies for its desktop computers, the configuration weaknesses
                identified with laptop computers are relevant to all government-issued
                computers assigned within the Federal Emergency Management Agency.
                Finally, we were unable to evaluate the Federal Information Security
                Management Act of 2002 requirements because the Federal Emergency
                Management Agency had not accounted for its laptop computers as part of a
                recognized information technology system.

                To secure Federal Emergency Management Agency data stored on
                government-issued laptop computers, we are making seven recommendations
                to the Federal Emergency Management Agency Director. Our
                recommendations focus on developing a standard configuration, remedying
                existing vulnerabilities, patching and updating laptop computers, implementing
                inventory management controls, and complying with Federal Information
                Security Management Act requirements.

                 Improved Administration Can Enhance FEMA Laptop Computer Security

                                            Page 1
In response to our draft report, the Federal Emergency Management Agency
concurred with our recommendations. The Federal Emergency Management
Agency’s response is summarized and evaluated in the body of this report and
included, in its entirety, as Appendix B.




Improved Administration Can Enhance FEMA Laptop Computer Security


                             Page 2 

Background
                         The Federal Emergency Management Agency (FEMA) leads the effort to
                         prepare the nation for all hazards and manages federal response and recovery
                         efforts following any national incident. FEMA employs over 2,600 full time
                         employees and has approximately 4000 standby disaster assistance employees
                         who are available for deployment after disasters. As part of the nation’s
                         emergency management system, FEMA partners with state and local
                         emergency management agencies, 27 federal agencies, and the American Red
                         Cross. To fulfill its mission, FEMA has over 32,000 laptop computers in its
                         automated property management system.

                         As the weight and price of laptops have decreased and their computing power
                         and ease of use have increased, their popularity has grown among government
                         employees. The Department of Homeland Security (DHS) relies heavily on
                         laptop computers for conducting business. The mobility of laptops has
                         increased the productivity of the workforce, but at the same time increased the
                         risk of theft, unauthorized data disclosure, and virus infection. Thefts of laptop
                         computers occur regularly from offices, airports, automobiles, and hotel rooms,
                         and the incidence of laptop thefts is increasing.

                         According to the DHS Computer Security Incident Response Center (CSIRC),
                         16 security incidents involving stolen or missing DHS laptop computers were
                         reported in 2006, including government-issued laptops from U.S Customs and
                         Border Protection, United States Secret Service, U.S. Immigration and Customs
                         Enforcement, Transportation Security Administration, and DHS Headquarters.
                         Further, in September 2006, the Government Accountability Office and DHS
                         Office of Inspector General (OIG), in a joint report to Congressional
                         Committees, reported that the Federal Emergency Management Agency
                         (FEMA) had more than 100 missing and presumed stolen laptop computers
                         valued at $300,000.1

                         Government organizations that provide for the use of laptop computers must
                         take steps to ensure that the equipment and the information stored on them are
                         properly protected. Such steps may include ensuring secure storage of laptop
                         computers when they are not in use; encrypting data files stored on laptops;
                         installing adequate security software applications such as firewalls and anti-
                         virus software, disabling and controlling built-in wireless, Bluetooth, and

1
 Control Weaknesses Leave DHS Highly Vulnerable to Fraudulent, Improper, and Abusive Activity, September 2006,
GAO-06-1117.


                         Improved Administration Can Enhance FEMA Laptop Computer Security


                                                       Page 3 

infrared connection capabilities; and regularly updating operating system and
application software.

DHS Sensitive Systems Policy Directive 4300A and DHS National Security
Systems Policy Directive 4300B provide direction to DHS components
regarding the management and protection of sensitive and classified systems,
respectively. In this report, we refer to DHS Sensitive Systems Policy
Directive 4300A and DHS National Security Systems Policy Directive 4300B
collectively as “DHS policy.”

These policies outline the management, operational, and technical controls
necessary for ensuring confidentiality, integrity, availability, and authenticity
within the DHS Information Technology (IT) infrastructure and operations.
DHS policy requires that its components ensure that strong inventory
management, physical security, logical access, and wireless security controls
are implemented for all systems processing sensitive or classified information.
The department developed the DHS 4300A Sensitive Systems Handbook and the
DHS 4300B National Security Systems Handbook to provide specific
techniques and procedures for implementing the requirements of DHS policy.
Further, in May 2006, DHS published a series of secure baseline configuration
guides for certain operating system and software applications, such as
Microsoft Windows.

The National Institute of Standards and Technology (NIST) has issued several
publications related to laptop inventory management, physical security, logical
access, and wireless security controls. Specifically, NIST Special Publication
(SP) 800-12, An Introduction to Computer Security: The NIST Handbook,
provides guidance for establishing adequate logical and physical access
controls for sensitive government systems, including the use of strong
passwords, encryption, and user administration practices. Further, NIST
SP 800-46, Security for Telecommuting and Broadband Communications,
provides security guidelines for laptops used to remotely access government
networks, including the use of anti-virus software, personal firewalls,
encryption, and basic input output system (BIOS) passwords. BIOS is the
software code run by a computer when first powered on. The primary function
of BIOS is to prepare the machine so other software programs stored on various
media (such as hard drives, floppies, and CDs) can load, execute, and assume
control of the computer. This process is known as booting up.




Improved Administration Can Enhance FEMA Laptop Computer Security


                             Page 4 

Results of Audit
         Standard Configuration Will Enhance Laptop Security
                           FEMA does not have a secure standard configuration for its laptop computers.
                           We evaluated whether FEMA established and followed adequate procedures to
                           ensure that laptops were configured appropriately to protect sensitive data
                           contained in its government-issued laptops. Also, we assessed the process used
                           by FEMA to develop and apply a domain group policy2 that establishes the
                           security settings that are applied to all computers connecting to its network.
                           Finally, we tested a sample of 298 user-assigned, shared, loaner, and
                           unassigned laptop computers to ensure that the configuration was in
                           conformance with DHS and federal guidelines.3 These tests included:
                                • 	 Automated vulnerability assessment scans and port scanning of
                                    298 laptops to identify configuration weaknesses;
                                • 	 Detailed technical testing for a subset of 65 laptops to confirm the
                                    automated testing results and determine account, audit, access privilege,
                                    and password parameter settings;
                                • 	 Password strength analysis for a subset of 65 laptops to ensure that
                                    strong passwords were used; and
                                • 	 Manual reviews for a subset of 65 laptops to verify the presence and
                                    configuration of installed software.

                           We tested 298 laptop computers to determine whether FEMA had applied
                           adequate logical access controls. FEMA’s current process does not establish
                           the required minimum security for laptop computers as directed by DHS.
                           Because FEMA uses the same process to configure both its laptop and desktop
                           computers, the configuration weaknesses are relevant to all FEMA
                           government-issued computers. As a result of the security issues identified,
                           sensitive data may not be properly protected.

                           Because of its diverse mission, FEMA has developed multiple standard images
                           based on DHS guidelines and industry best practices, as well as requirements
                           established in DHS policy. FEMA has developed eight standard images for

2
  Group policy is an infrastructure used to deliver and apply one or more desired configurations or policy settings to a set

of targeted users and computers within an Active Directory environment. 

3
  An image contains a group of programs to be duplicated verbatim onto other computers. It typically contains the 

operating system and a selected set of applications that are preconfigured. 



                           Improved Administration Can Enhance FEMA Laptop Computer Security


                                                             Page 5 

    Disaster Information Systems Clearinghouse (DISC) laptop computers. The
    DISC operates a storage and recycling center that provides centralized control
    and deployment of all computer and communications equipment necessary to
    support disaster declarations. FEMA DISC officials said approximately
    of 32,145 ( %) laptop computers contain the DISC standard images
    established to support disaster operations. In addition, FEMA headquarters,
    Region 8, and Mobile Emergency Response Support (MERS) Denver had
    developed their own standard images for laptop computers that were not
    distributed by DISC. A FEMA MERS detachment provides mobile
    telecommunications, operational support, life support, and power generation
    assets for the on-site management of disaster and all-hazard activities. FEMA
    officials do not know how many standard images are employed throughout its
    agency.

    FEMA standard images contain an operating system and general support
    applications. Depending on the mission requirements, additional applications
    may be loaded onto laptops. FEMA’s standard images also incorporate anti-
    virus software, as well as a personal firewall for users that remotely access the
    FEMA network. Further, FEMA employs a domain group policy that ensures
    computers, connecting to its network, adhere to an established set of security
    controls. Local IT administrators cannot remove the security restrictions
    enforced by the group policy. Local IT administrators can make the group
    policy more restrictive. Although these measures enhance the security of
    FEMA’s laptop computers, certain critical controls were not incorporated into
    laptop configuration settings or the domain group policy. Specifically, FEMA
    needed to:
        •




                         .4




        •


4




    Improved Administration Can Enhance FEMA Laptop Computer Security


                                 Page 6 

        •



        •




        •




        •




        •

                o 





                o 





5




    Improved Administration Can Enhance FEMA Laptop Computer Security


                                 Page 7 

            o 





            o 





    •
            o 





            o 





These weaknesses are the result of FEMA not developing a model system that
meets minimum-security requirements for laptop computers, as directed by
DHS.



DHS policy requires that components establish, implement, and enforce change
management and configuration management controls on all IT systems and
networks. The DHS IT Security Architecture Guidance also advises that each
fully supported operating system have a standard configuration from which
every instance is built. According to NIST SP 800-40, standardized
configurations reduce the labor involved in identifying, testing, and applying
patches; and ensure a higher level of consistency, which leads to improved


Improved Administration Can Enhance FEMA Laptop Computer Security


                             Page 8 

                           security. DHS and federal configuration guidelines also establish requirements
                           related to security parameter settings, including account policy settings, access
                           permissions, and renaming administrator and guest accounts.

                           DHS and NIST require that sensitive information stored on laptop computers,
                           which may be used in a residence or on travel, be encrypted using NIST
                           Federal Information Processing Standards (FIPS) Publication 140-2 approved
                           encryption.6 DHS and NIST recommend that the boot priority and BIOS
                           passwords be set on sensitive systems to reduce the possibility of exploitation
                           by an attacker with physical access to the laptop. DHS 4300A requires that
                           functions that transmit or receive infrared signals shall be disabled in areas
                           where sensitive information is discussed. Although personal firewalls are not
                           required under DHS Policy Publication 4300A, security controls are necessary
                           for laptops that remotely connect to the network.

                           As a result of FEMA not ensuring that all laptop computers are configured
                           appropriately,




                                           Because FEMA uses the same process to apply group policy
                           settings for both its laptop and desktop computers, the configuration
                           weaknesses are relevant to all FEMA government-issued computers.

                  Recommendations
                           To secure FEMA data stored on government-issued laptop computers, we
                           recommend that the Director of FEMA instruct the Chief Information Officer
                           (CIO) to:
                           Recommendation #1: Develop and implement a secure standard configuration
                           for all computers. Further, the CIO should establish procedures to ensure that
                           the model system is configured to protect FEMA data and verified prior to
                           implementation.


6
 NIST FIPS 140-2 specifies the security requirements for cryptographic modules used within a security system protecting
sensitive but unclassified information. The standard provides four increasing levels of security that are intended to cover a
wide range of potential applications and environments. The Cryptographic Module Validation Program substantiates
cryptographic modules to FIPS 140-2 and other cryptography-based standards. Products validated as conforming to FIPS
140-2 are accepted by the federal agencies for the protection of sensitive information.


                           Improved Administration Can Enhance FEMA Laptop Computer Security


                                                            Page 9 

         Recommendation #2: Remedy the existing critical vulnerabilities identified
         on laptop computers based on DHS and federal configuration guidelines.
         Further, the CIO should confirm whether similar vulnerabilities and
         remediation are applicable to all government-issued computers within FEMA.

    Management Comments And OIG Analysis
         FEMA concurs with recommendation 1. FEMA has taken steps to develop and
         implement standard hard drive images. FEMA will develop a schedule to
         ensure that laptop computers connected to its network comply with DHS
         security guidelines.

         We accept FEMA’s response to implement and distribute a standard image for
         all government issued computers.

         FEMA concurs with recommendation 2. FEMA has begun taking steps to
         implement the recommended security settings. All laptop computers used for
         remote access will have a firewall enabled. FEMA is removing all Windows
         2000 machines from its network and inventory.

         We accept FEMA’s response to implement corrective action plans for the
         existing vulnerabilities in its standard configuration.

Improved Patch and Update Management Will Increase Security
         FEMA has procedures to patch and update its laptop computers prior to being
         placed into operation as part of its image install process. However, for laptop
         computers in use, FEMA has not established effective procedures to patch and
         update its laptop computers to protect against known operating system
         vulnerabilities and computer viruses. For those computers already in operation,
         FEMA distributes patches and updates through its network by patch
         management software. We conducted vulnerability assessment scans on a
         sample of 298 laptop computers to determine whether patches and updates had
         been applied. To determine if Microsoft, anti-virus, and third-party software
         patches and updates had been applied, we performed an automated scan with
                                            and conducted manual reviews.




         Improved Administration Can Enhance FEMA Laptop Computer Security


                                      Page 10 

Microsoft Patches

Microsoft issues patches to help its customers operate their systems and
networks securely. Applying patches is the primary method of fixing security
vulnerabilities in vendor software. Our assessment scans identified patches
related to critical, important, and moderate risk vulnerabilities that had not been
applied. Specifically,                                                           ,


     Table 1: Number Of Missing Patches For Each Severity Rating
        Critical          Important           Moderate               Total


The oldest missing critical patch is       , published in          , to
correct a vulnerability in                     . Further,    of 298 ( %)
laptops were missing one or more of Microsoft Window’s critical, important, or
moderate patches.

Table 2 illustrates the number of missing critical, important, and moderate risk
patches on FEMA laptop computers by site.




Improved Administration Can Enhance FEMA Laptop Computer Security


                             Page 11 

                                    Table 2: Missing Patches

                              Number              Number of Laptops With Missing Patches
Site/Type                    of Laptops
                               Tested          1-3         4 - 10     11 - 20     21 - 30    31 or More
                                              Patches     Patches     Patches     Patches     Patches

                                                 Total

 Total                            298

                                        Weaknesses by Region
FEMA Headquarters
Washington, DC
Joint Field Office
Albany, NY
Joint Field Office
Baton Rouge, LA
MERS detachment
Denver, CO
 Region 8
 Denver, CO
Source: OIG table based on the results of technical testing and interviews with FEMA personnel.

            FEMA uses a Windows Server Update Services (WSUS) server in order to
            centrally control patch management service for Microsoft Windows operating
            systems and other software. To receive patches, a laptop computer must be
            connected to the FEMA domain and access the WSUS server to download the
            updates. Further, once patches are downloaded onto the laptop, the user must
            manually initiate the install process. FEMA does not have procedures to
            download and install patches to laptop computers that do not regularly connect
            to its network.

            Third-Party Software Patches

            Software vendors issue patches as vulnerabilities are discovered in system
            software to assist their customers in protecting their systems and networks.
            Security patches must be installed according to FEMA’s configuration
            management plans or at the direction of the DHS CSIRC. We tested 298 laptop
            computers to identify third-party software and to determine whether FEMA had
            applied patches to mitigate known security weaknesses.




           Improved Administration Can Enhance FEMA Laptop Computer Security


                                           Page 12 

There were patches related to both critical and high-risk vulnerabilities that had
not been applied. Specifically, FEMA had not patched:
    •




    •




    •




    •




DHS policy requires that IT security patches be installed according to
configuration management plans or direction from DHS CSIRC. According to
NIST SP 800-40, patching is critical to maintaining the operational availability,
confidentiality, and integrity of information technology systems. NIST
SP 800-40 recommends that organizations have a systematic, accountable, and
documented process for managing exposure to vulnerabilities through the
timely deployment of patches.

Because FEMA had not applied all relevant patches to its laptops,




Improved Administration Can Enhance FEMA Laptop Computer Security


                             Page 13 

    Anti-virus Updates

    FEMA maintains anti-virus update servers that check computers, and
    downloads and install current anti-virus definitions before access is granted to
    its domain. When a laptop computer is connected to the FEMA domain, it is
    automatically directed to FEMA’s anti-virus update server to ensure
    compliance with current virus definitions. Laptops that are not compliant with
    the latest anti-virus signatures are denied access to the network. We manually
    reviewed 65 laptop computers and




    DHS policy requires components to establish and enforce a virus protection
    control policy. In addition, components shall implement a defense-in-depth
    strategy that installs anti-virus software on its computers that is properly
    configured to check all files, downloads, and e-mails. Further, components
    shall install updates to antivirus software and signature files for each computer
    in a timely and expeditious manner without requiring the end user to
    specifically request the update.

    As a result of laptop computers not regularly connecting to FEMA’s domain,
    laptops are not updated with the latest anti-virus signatures. Further, since
    employees may connect to the Internet from a residence, hotel, airport, or
    public wireless network, viruses and other types of malicious code pose a
    significant threat to FEMA laptop computers, which can affect the availability,
    integrity, and confidentiality to the laptop and its data.

Recommendations
    To secure FEMA data stored on government-issued laptop computers, we
    recommend that the Director of FEMA instruct the Chief Information Officer
    (CIO) to:


    Improved Administration Can Enhance FEMA Laptop Computer Security

                                 Page 14
          Recommendation #3: Implement procedures to ensure that all FEMA laptops
          are patched and updated in a timely manner, including those that do not
          regularly connect to the FEMA network.

     Management Comments And OIG Analysis
          FEMA concurs with recommendation 3. FEMA has taken steps to implement
          an automated patch management solution to ensure required patches are applied
          to FEMA’s laptop computers. FEMA will require its laptop computers to
          connect to the FEMA network to ensure patches are downloaded.

          We accept FEMA’s response to implement an automated patch management
          solution and monitor its patching process to verify that patches are applied.

Enhanced Inventory Management Is Needed For Property Accountability
          FEMA has not established effective inventory management procedures for its
          laptop computers. We evaluated FEMA procedures for maintaining an
          accurate laptop inventory, returning equipment upon employee exit or transfer,
          handling lost or stolen laptops,                                          , and
          providing the proper labeling of laptop computers. Also, we reviewed laptop
          physical security measures, and assessed the FEMA laptop inventory by
          analyzing the integrity of inventory data on the 298 laptop computers included
          in our manual reviews.

          FEMA has procedures for entering laptop computers into the Logistics
          Information Management System (LIMS), its property management system.
          However, FEMA has not implemented several critical inventory management
          controls. Specifically, FEMA has not:
              • 	 Maintained an accurate inventory;
              • 	 Ensured that lost or stolen laptops were reported to the appropriate
                  officials;
              •
                           ; and
              • 	 Appropriately marked its Sensitive But Unclassified (SBU) laptops.

          As a result of these weaknesses in inventory management and property
          accountability procedures, there is greater risk that FEMA officials will not
          have a complete and accurate inventory of its laptop computers. In addition,


          Improved Administration Can Enhance FEMA Laptop Computer Security


                                       Page 15 

                           sensitive information may not be restricted appropriately and unauthorized
                           access to personally identifiable information contained in the laptops could
                           result in an adverse effect, with widespread affect on individual privacy.

                           Laptop Inventory Is Not Accurate

                           Although FEMA has an inventory for its SBU laptop computers, it has not
                           established effective inventory management procedures to ensure that its
                           records are accurate. We randomly selected 242 laptop computers to determine
                           the accuracy of FEMA’s inventory. FEMA’s inventory had a number of
                           discrepancies. Specifically, 74 (31%) laptops were not updated in the LIMS.
                           See Appendix A for additional information about our selection methodology.
                           Upon further analysis, the 74 laptops were:
                               • 	 Lost, damaged, or excess, that had not been removed from the
                                   inventory.
                               • 	 Desktop computers that had been recorded as laptops.
                               • 	 Inventory entry errors made by the Accountable Property Officers.
                               • 	 Laptops that had been transferred to other locations.
                           In addition, 41 laptop computers located in Denver, Colorado were included on
                           a local inventory but not recorded in LIMS. Local officials said 20 of these
                           laptops were not included in LIMS because FEMA had not yet assumed
                           ownership of the systems. The remaining laptops were not included in the
                           inventory because the Accountable Property Officers had not updated LIMS
                           with the current status.
                           FEMA does not conduct semiannual inventories as required by DHS policy.
                           Further, FEMA’s Personal Property Management Program Manual 6150.1 is
                           not aligned with DHS policy that requires semiannually inventories. Also,
                           when inventories are conducted, local Accountable Property Officers do not
                           include an examination of installed software. Accountable Property Officers
                           we interviewed were not aware of these requirements.
                           DHS policy requires that components develop and maintain a property
                           inventory of all portable electronic devices, such as laptops. This inventory is
                           to include serial numbers or seat numbers, user names, use, and location of all
                           portable electronic devices for accountability purposes.7 In addition, DHS
                           policy requires that components conduct reviews, at least semiannually, of all

7
 A seat, also referred to as a “node,” is an intelligent element like a processor that can communicate using interprocessor
communications. A seat is where entities and ports reside.


                           Improved Administration Can Enhance FEMA Laptop Computer Security


                                                            Page 16 

equipment and software to ensure that only government-licensed software and
equipment are being used, and that appropriate exceptions have been
documented. As a result of an incomplete and inaccurate inventory, there is a
greater risk that FEMA officials will not be able to account for their laptop
computers or be prepared to manage effectively federal response and recovery
efforts following a major incident.

Lost or Stolen Laptops Are Not Reported Appropriately

FEMA has not ensured that lost or stolen laptops are reported to the DHS
CSIRC. As illustrated in Table 3, we identified 26 of 242 (11%) laptop
computers judgmentally selected from the LIMS inventory that FEMA officials
could not locate. FEMA was unaware that these laptops were missing.


                Table 3: Unaccountable Laptop Computers
                       Number of Laptops Randomly        Number of Laptops FEMA
Site
                          Selected for Testing            Could Not Account For
FEMA Headquarters
                                    60
Washington, DC
Joint Field Office
                                    60
Albany, NY
Joint Field Office
                                    60
Baton Rouge, LA
MERS Detachment
                                    28
Denver, CO
Region 8
                                    34
Denver, CO
Total                              242



Further, FEMA’s Security Branch issued a memorandum in September 2006
reporting that 58 laptop computers were lost, missing, or stolen since
January 2005. The laptop security incidents were investigated and reported to
FEMA Headquarters, but were not reported to DHS CSIRC. According to
FEMA officials, the 58 missing computers were not reported because the DHS
CSIRC is a relatively new entity. FEMA officials said that since our review,
they have begun reporting security incidents to DHS CSIRC.

DHS policy requires that components report significant computer security
incidents to the DHS CSIRC immediately upon identification and validation of
incident occurrence. The DHS CSIRC is normally responsible for notifying



Improved Administration Can Enhance FEMA Laptop Computer Security


                             Page 17 

    appropriate law enforcement authorities of a security event, who pursue the
    investigation and recommend disciplinary action, if required. Because FEMA
    had not reported these security incidents to the DHS CSIRC, senior DHS
    officials may not be aware of the extent or scope of laptop security issues at the
    department, and the appropriate corrective actions may not have been taken.
    Further, without an accurate inventory, FEMA may not be aware of additional
    missing laptop computers.

    Laptops Are

    FEMA has implemented procedures for

                                  .8 Specifically:
        •

        •


    In July 2006, FEMA issued a standard operating procedure and technical
    guidance to ensure compliance with federal laws and regulations. However,
    FEMA IT staff we interviewed do not adhere to DHS policy or FEMA
    guidelines.



    DHS policy requires that components ensure that

                                                                         DHS policy also
    requires that components ensure that
                                                                                           ,
                                                  As a result of these weaknesses in

8




    Improved Administration Can Enhance FEMA Laptop Computer Security


                                 Page 18 

    FEMA’s                    , there is greater risk that access to sensitive
    information may not be limited properly.

    Laptops Are Not Marked Appropriately

    FEMA has not ensured that its laptops are appropriately labeled. Specifically,
    none of the SBU laptops tested were: (1) marked with the highest classification
    level of the information that has been processed or stored on the device, or (2)
    labeled indicating that the units were not authorized for classified processing.

    FEMA’s Personal Property Management Program Manual 6150.1 does not
    address marking computers with the highest classification level or affixing
    labels on units authorized for classified processing. Local IT staff and
    Accountable Property Officers we interviewed were unaware of this
    requirement. Headquarters officials said that FEMA had not had the
    opportunity to label its laptop computers and is currently considering what
    other DHS components are using to mark and label their systems.

    DHS policy requires that all equipment be marked with the highest
    classification level of the information that has been processed or stored on the
    device. Because these laptops were not appropriately marked, there is greater
    risk that classified information may have been processed on an unclassified
    system. DHS policy also recommends that a label be affixed to PCs, terminals,
    and laptops not authorized to process classified information, especially in
    environments where both sensitive information and classified information are
    processed.

Recommendations
    To secure FEMA data stored on government-issued laptop computers, we
    recommend that the Director of FEMA instruct the Chief Information Officer
    (CIO) to:

    Recommendation #4: Implement appropriate inventory management controls
    to ensure that an accurate laptop inventory is maintained, including effective
    inventory reviews.

    Recommendation #5: Report computer security incidents to DHS CSIRC in a
    timely manner to ensure that they are investigated and that appropriate
    corrective action is taken.



    Improved Administration Can Enhance FEMA Laptop Computer Security


                                 Page 19 

          Recommendation #6:



     Management Comments And OIG Analysis
          FEMA concurs with recommendation 4. FEMA is revising its procedures for
          accountability and control of its computing resources. An inventory and
          reconciliation of IT property will be completed by September 30, 2007.

          We accept FEMA’s response to complete a comprehensive IT inventory. To
          ensure that an accurate laptop inventory is sustained, we maintain that FEMA
          should conduct annual inventory reviews.

          FEMA concurs with recommendation 5. FEMA Instruction 1540.1 has been
          updated to include requirements for the Chief Security Officer and the Chief of
          Information Technology Security to be notified of computer security incidents.
          Computer security incidents will be reported to DHS CSIRC.

          We accept FEMA’s response to report all computer security incidents to DHS
          CSIRC to ensure that the incidents are investigated and appropriate corrective
          action is taken.

          FEMA concurs with recommendation 6.

                                                                 . FEMA will implement
          policy changes that will ensure that all classified and unclassified laptop
          computers are appropriately marked.

          We accept FEMA’s response to




FEMA Needs To Certify And Accredit Laptop Computers To Comply
With FISMA
          The Federal Information Security Management Act of 2002 (FISMA), Title III
          of the E-Government Act (Public Law 107-347, December 17, 2002), provides


          Improved Administration Can Enhance FEMA Laptop Computer Security


                                       Page 20 

    a comprehensive framework to ensure the effectiveness of security controls
    over information resources that support federal operations and assets. The
    agency’s security program shall provide security for the information as well as
    the systems that support the operations and assets of the agency, including
    those provided or managed by another agency, contractor, or other source.

    We were unable to evaluate the effectiveness of FEMA’s information security
    program and practices as implemented for SBU laptop computers. FEMA has
    32,145 laptop computers processing sensitive information that may contain
    personally identifiable information. FEMA officials do not consider laptops a
    major application or general support system and, therefore, had not certified
    and accredited its laptop computers. Since our review, FEMA plans to review
    certification and accreditation requirements for portable computers, evaluate
    options, and determine the most efficient and cost-effective approach to certify
    and accredit FEMA laptop computers.

    FISMA requires each agency to develop, document, and implement an
    agency-wide information security program to provide security for its
    information and systems. Policies should ensure that information security is
    addressed throughout the life cycle of each agency information system and
    determine minimally acceptable system configuration requirements. In
    addition, DHS policy requires that every DHS computing resource (e.g.,
    desktops, laptops, servers, portable electronic devices) shall be individually
    accounted for as part of a recognized IT system. Further, every computing
    resource shall be designated as a part of an IT system.

    Because FEMA has not certified and accredited its laptop computers, this
    presents a significant deficiency for the DHS information system security
    program. We believe that information systems operating without certification
    and accreditation could increase the risk and potential magnitude of harm.
    Therefore, FEMA should consider identifying this deficiency as a material
    weakness pursuant to Office of Management and Budget Circular No. A-123,
    “Management Accountability and Control,” and the Federal Manager’s
    Financial Integrity Act.

Recommendations
    To secure FEMA data stored on government-issued laptop computers, we
    recommend that the Director of FEMA instruct the Chief Information Officer
    (CIO) to:



    Improved Administration Can Enhance FEMA Laptop Computer Security


                                 Page 21 

    Recommendation #7: Adhere to DHS policy that requires every computing
    resource to be individually accounted for as part of a recognized IT system.
    Further, the CIO should ensure laptop computers are compliant with FISMA.
Management Comments And OIG Analysis
    FEMA concurs with recommendation 7. FEMA is revising its procedures
    regarding accountability and control of its computing resources. FEMA’s
    process to certify and accredit its laptops and ensure its computers are FISMA
    compliant is almost complete.

    We accept FEMA’s response to ensure its laptop computers comply with
    FISMA security requirements.




    Improved Administration Can Enhance FEMA Laptop Computer Security


                                 Page 22 

Appendix A
Purpose, Scope, and Methodology


                   The objective of this audit was to determine whether FEMA had implemented
                   adequate and effective security policies and procedures related to the physical
                   security of and logical access to its government-issued laptop computers.
                   Specifically, we determined whether FEMA had implemented adequate
                   (1) policies and procedures for inventory management; (2) physical security
                   measures; (3) logical access controls; and, (4) wireless security measures for
                   sensitive data contained in its government-issued laptops. Our focus was to test
                   the development and implementation of a model system for laptop computers
                   processing and storing sensitive or classified DHS data, as well as the
                   procedures used to patch and update laptops once placed into operation. In
                   addition, we attempted to obtain FISMA information required for our annual
                   independent evaluation. However, FEMA had not assigned its laptop
                   computers to a recognized IT System.

                   FEMA’s laptop computers are accounted for in LIMS, an automated property
                   management system. On September 7, 2006, LIMS contained 32,145 laptop
                   computers. We selected 242 laptop computers to conduct automated and
                   manual testing. We had to exclude 115 laptop computers from our original
                   sample size because laptops were either missing, excessed, not available, or
                   had hardware/software conflicts. We judgmentally selected an additional
                   171 laptops on site to give us a sample size of 298 laptop computers.




                   Improved Administration Can Enhance FEMA Laptop Computer Security


                                                Page 23 

Appendix A
Purpose, Scope, and Methodology


                       To identify laptop computers, we analyzed the FEMA laptop computer
                       inventory and selected the following FEMA sites for testing.

                                 FEMA Testing Locations and Laptop Computers
                                                             298 SBU Laptops
             Region
                                 User-Assigned       Shared         Loaner      Unassigned      Total
             Washington,
                                   15 Laptops       31 Laptops     2 Laptops     12 Laptops   60 Laptops
             DC
             Albany,
                                   59 Laptops            -             -             -        59 Laptops
             NY
             Baton Rouge,
                                   85 Laptops            -             -         7 Laptops    92 Laptops
             LA
             Denver,
                                   73 Laptops       13 Laptops         -         1 Laptops    87 Laptops
             CO
             Total                232 Laptops       44 Laptops     2 Laptops     20 Laptops   298 Laptops


                       We performed automated vulnerability assessment scans and port scanning of
                       298 laptops to determine configuration weaknesses and missing patches. In
                       addition, we conducted detailed testing for a subset of 65 laptop computers.
                       These test included:
                           • 	 Detailed technical testing to confirm the automated testing results and
                               determine account, audit, access privilege, and password parameter
                               settings.
                           • 	 Password strength analysis to ensure that strong passwords were used.
                           • 	 Manual reviews to verify the presence and configuration of installed
                               software.

                       We created a closed testing network to assess FEMA’s laptop computers with
                       an OIG scanning laptop. This closed network did not connect to the FEMA
                       domain or the Internet. The following diagram illustrates the configuration of
                       the OIG testing network.




                       Improved Administration Can Enhance FEMA Laptop Computer Security


                                                    Page 24 

Appendix A
Purpose, Scope, and Methodology


                               Scanning                                   Linksys
                                Laptop                                    Router


                                                Linksys                                    Linksys
                                                Switch                                     Switch




                                              Target                                      Target
                                             Laptops                                     Laptops
                                                         Architecture of Testing Network

                            Upon completion of the tests, we provided component officials with technical
                            reports detailing the specific vulnerabilities detected on their system and the
                            actions needed for remediation.

                            We used eight testing tools to conduct internal security tests to evaluate the
                            effectiveness of controls implemented for the systems:
                                 •




                                 •



                                 •




9
    NIST SP 800-42, Guideline on Network Security Testing, identifies Internet Scanner as a common testing tool.


                            Improved Administration Can Enhance FEMA Laptop Computer Security


                                                            Page 25 

Appendix A
Purpose, Scope, and Methodology


                       •



                       •

                       •

                       •


                       •




                   We conducted fieldwork at FEMA facilities in Washington, DC; Bluemont,
                   Virginia; Albany, New York; Baton Rogue, Louisiana; Denver, Colorado; and,
                   the OIG Advanced Technology Laboratory (ATL). The ATL supports our
                   capability to perform effective and efficient technical assessments of DHS
                   information systems in diverse operating environments. The ATL is a
                   collection of hardware and software that allows the simulation, testing, and
                   evaluation of the computing environments that are most commonly used within
                   DHS. We conducted our audit from September to November 2006 under the
                   authority of the Inspector General Act of 1978, as amended, and according to
                   generally accepted government auditing standards. Major OIG contributors to
                   the audit are identified in Appendix C.

                   Our principal points of contact for the audit are Frank Deffer, Assistant
                   Inspector General for Information Technology Audits, at (202) 254-4100, and
                   Edward G. Coleman, Director, Information Security Audit Division, at
                   (202) 254-5444.




                   Improved Administration Can Enhance FEMA Laptop Computer Security


                                                Page 26 

Appendix A
Purpose, Scope, and Methodology




                   Source: OIG auditors conducting security scans on laptop computers
                   in Denver, Colorado.




                    Source: OIG auditors conducting security scans on laptop computers
                   in Denver, Colorado.




                   Improved Administration Can Enhance FEMA Laptop Computer Security


                                                Page 27 

Appendix B
Management Comments to the Draft Report




                 Improved Administration Can Enhance FEMA Laptop Computer Security


                                              Page 28 

Appendix B
Management Comments to the Draft Report




                 Improved Administration Can Enhance FEMA Laptop Computer Security


                                              Page 29 

Appendix B
Management Comments to the Draft Report




                 Improved Administration Can Enhance FEMA Laptop Computer Security


                                              Page 30 

Appendix C
Major Contributors to this Report



                    Information Security Audits Division
                    Edward G. Coleman, Director
                    Patrick Nadon, Audit Manager
                    Eugene Yu, Audit Team Leader
                    Swati Mahajan, Referencer

                    Advanced Technology Division
                    Marcus Badley, Senior Security Engineer
                    David Hawkins, Senior Security Engineer
                    Jordan Fox, Security Engineer, Space and Naval Warfare Systems Command




                  Improved Administration Can Enhance FEMA Laptop Computer Security
                                                  Page 31
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Chief Information Security Officer
                      Director, Compliance and Oversight Program
                      Chief Information Officer Audit Liaison
                      Chief Information Officer, FEMA
                      Audit Liaison, FEMA
                      Director, Information Security Audit Division
                      Chief Privacy Officer


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                  Improved Administration Can Enhance FEMA Laptop Computer Security
                                                  Page 32
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
